September 20, 2021
Scott S. Harris, Clerk of the Court
United States Supreme Court
1 First Street, N.E.
Washington, DC 20543
Re:

Joseph A. Kennedy v. Bremerton School District, No. 21-418

Dear Mr. Harris:
Under Supreme Court Rule 30.4, Respondent Bremerton School District
respectfully requests a 50-day extension to file its response to the petition for a writ
of certiorari. The response is currently due October 18, so the requested extension
would make it due not later than Tuesday, December 7, 2021. Counsel for the
petitioner have authorized us to state that petitioner consents to this request. An
extension is warranted for several reasons.
First, additional time is needed to prepare a useful and effective brief that
adequately presents the issues for the Court’s consideration. Respondent anticipates
that multiple amici will file briefs in support of petitioner, so the additional time will
allow respondent’s counsel to consider those arguments carefully and respond to them
as warranted.
Second, counsel for respondent have significant deadlines and professional
commitments in the coming two months, including, among others, amicus briefs to
be filed in this Court in Dobbs v. Jackson Women’s Health Org., No. 19-1392 (due
today, September 20) and Carson v. Makin, No. 20-1088 (due October 29); a
preliminary-injunction hearing set for October 13 in Sinclair v. Albarran, No. 5:20cv-2798 (N.D. Cal.); an amicus brief to be filed in Starkey v. Roman Catholic
Archdiocese of Indianapolis, No. 21-2524 (7th Cir.) (due November 3); summaryjudgment briefing in Fitzgerald v. Roncalli High School, No. 19-cv-4291 (S.D. Ind.)
(due November 22); and a response to another cert. petition to be filed in this Court.
As much as possible, counsel had planned the schedules for that work around the
petition’s due date. Because the petition was filed 33 days before the deadline, what
would have been a difficult schedule for the coming months has become an
unmanageable one.
Third, given the ongoing COVID-19 pandemic, additional time is necessary.
Although the Court revoked its COVID scheduling order, the recent rise in the Delta
variant has prevented counsel’s scheduled return to the office and is interfering with

the operations of support staff, giving rise to the same difficulties of remote work as
were prevalent when the Court’s COVID order was in place.
Fourth, the undersigned was recently diagnosed with Lyme Disease and is
undergoing treatment for it. As a result of the disease, counsel’s ability to work during
this period is severely limited.
Finally, there will be no prejudice to anyone if the extension is granted. This
case was filed in 2016, and this Court denied certiorari in 2019 on a previous petition
seeking review of the denial of a preliminary injunction. The request is for 50 days so
that the timing of petitioner’s reply will not require petitioner’s counsel to work over
the holidays. The undersigned affirms that the extension request is not made for
purposes of delay and that counsel will work expeditiously to file the response as soon
as is practicable.
For all these reasons, respondent’s request for a 50-day extension should be
granted.
Sincerely,

Richard B. Katskee
Counsel for Respondent
cc: Counsel of record

